                 Individual Income Tax Return Information
                     Was Accurately and Timely Posted
                   to the Customer Account Data Engine

                                     July 2005

                       Reference Number: 2005-40-109




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      July 18, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Individual Income Tax Return Information
                                   Was Accurately and Timely Posted to the Customer Account
                                   Data Engine (Audit # 200540014)


      This report presents the results of our review of the Internal Revenue Service (IRS)
      Customer Account Data Engine (CADE). The overall objective of this review was to
      determine whether tax return information was accurately and timely posted to taxpayers’
      accounts on the CADE. The CADE consists of current and planned databases and
      related applications that will eventually replace the existing IRS Master File1 system.
      We also determined whether related refunds were accurately and timely issued and
      taxpayers’ accounts were accurately moved from the CADE back to the Master File
      when their tax return information could not be posted to the CADE.
      The CADE is a critical building block in the IRS’ modernization program that will enable
      the development of subsequent modernized systems to improve customer service and
      compliance. The CADE is intended to eventually replace the antiquated Master File
      system that came into use four decades ago. The Government Accountability Office
      has stated that, without the CADE, the IRS business systems modernization program
      cannot succeed.2 The CADE is designed to post information to taxpayers’ accounts on
      a daily rather than weekly basis. Taxpayers should receive refunds faster, and IRS
      employees should be able to provide improved service to taxpayers by having
      up-to-date, accurate account information available.



      1
        The IRS database that stores various types of taxpayer account information. This database includes individual,
      business, and employee plans and exempt organizations data.
      2
        Business Systems Modernization – Internal Revenue Service Needs to Further Strengthen Program Management
      (GAO-04-438T, dated February 12, 2004).
                                                         2

The CADE will be implemented in a series of releases over several years. The first
CADE release, Release 1.1, began posting the simplest individual tax return information
in July 2004. This Release posted only information from an Income Tax Return for
Single and Joint Filers With No Dependents (Form 1040EZ) with a filing status of single
and a refund or even balance. Release 1.2, which included updates for tax law
changes affecting Tax Year 2004 income tax returns, was delivered in January 2005
and was the subject of our review.
To prepare for tax return processing during Calendar Year 2005, the IRS moved
selected taxpayers’ accounts from the Master File to the CADE. Based on previous tax
year information, the IRS moved accounts likely to have returns filed that would meet
CADE posting criteria. When a tax return that did not meet CADE criteria was filed for a
CADE account, the account was moved back to the Master File and the return
information posted there. Actions subsequent to tax return posting that could not be
handled by the CADE3 also caused accounts to be moved back to the Master File.
As of January 2005, 3.2 million individual taxpayers’ accounts were on the CADE. From
January through April 2005, the IRS posted 1.3 million tax returns to taxpayers’
accounts on the CADE, generating $400 million in refunds. During this same time,
1.2 million accounts were moved from the CADE back to the Master File. As of the end
of April 2005, at least 700,000 accounts that did not yet have a Tax Year 2004 return
filed remained on the CADE.
In summary, tax return information was accurately and timely posted to CADE accounts.
For returns posted to the CADE, the IRS also issued accurate refunds faster than for
returns posted to the Master File and provided accurate refund information to taxpayers
through its automated telephone service and its web site. When tax returns filed for
CADE accounts did not meet CADE criteria, the related account information was
accurately moved back to the Master File.
At the time of our review, a very limited number of accounts met the criteria to be on the
CADE. The IRS plans to continually increase the capabilities of the CADE, which will
increase the number of accounts eligible to be moved to the CADE and reduce the
number of CADE accounts returned to the Master File. This will allow the IRS to
provide better service to more taxpayers.
We identified employee actions that, coupled with CADE restrictions, caused accounts
to be unnecessarily moved from the CADE to the Master File. We reported this issue
during our review, and the IRS immediately issued instructions to minimize these
actions.
The successful implementation of the first two CADE releases is a noteworthy
achievement, providing a good foundation for future releases. However, there is much
to be done, and expanding the CADE will become even more challenging as the IRS
adds capabilities to handle more complicated tax returns.


3
    Such as payments, address changes, or amended returns.
                                           3

IRS management reviewed the draft report and provided their concurrence with its
contents via email. However, since there were no recommendations requiring a formal
response, the IRS agreed that the report will be issued without one.
Copies of this report are also being sent to the IRS managers affected by the report
issues. Please contact me at (202) 622-6510 if you have questions or Michael R.
Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                        Individual Income Tax Return Information Was
              Accurately and Timely Posted to the Customer Account Data Engine




                                             Table of Contents


Background ............................................................................................... Page 1
Tax Return Information Was Posted Accurately and Timely to the
Customer Account Data Engine ................................................................ Page 4
Accounts Were Accurately Moved Back to the Master File ....................... Page 6
The Current Scope of the Customer Account Data Engine Is Limited,
and Expanding It Will Be Challenging ....................................................... Page 7
More Accounts Could Be Retained on the Customer Account
Data Engine .............................................................................................. Page 9
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 11
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Customer Account Data Engine Release Chart ................. Page 16
Appendix V – Weekly Customer Account Data Engine Return and
Refund Posting Volumes – January Through April 2005........................... Page 18
                   Individual Income Tax Return Information Was
         Accurately and Timely Posted to the Customer Account Data Engine

                               The Customer Account Data Engine (CADE) is the
Background
                               foundation for managing taxpayer accounts in the Internal
                               Revenue Service’s (IRS) modernization plan. The CADE
                               consists of current and planned databases and related
                               applications that will eventually replace the existing IRS
                               Master File1 system. When fully operational, the CADE
                               will house tax information for more than 200 million
                               individual and business taxpayers. It is intended to replace
                               the antiquated Master File system that came into use
                               four decades ago.
                               Both paper and electronic tax returns are received by the
                               IRS at various Submission Processing sites across the
                               country. At these sites, the return information is input to the
                               IRS return processing computer system, which validates
                               certain taxpayer identifying information and checks the
                               returns for mathematical errors. After the return
                               information has been validated and errors have been
                               corrected, the sites send the information to the IRS
                               Computing Centers2 to be posted to taxpayers’ accounts. In
                               the past, this account information was all posted to the
                               Master File database, the official repository for all tax
                               accounts. The CADE is gradually replacing this database.
                               The age and complexity of the Master File system cause
                               delays and inaccuracies in providing service to taxpayers.
                               Updates to taxpayers’ account information on the Master
                               File3 occur on a weekly basis, and some updates require
                               multiple weekly cycles to complete. Because current data
                               are not available to IRS employees, taxpayers may be given
                               incorrect information about their accounts. In contrast, the
                               CADE is designed to post information to taxpayers’
                               accounts on a daily rather than weekly basis. Taxpayers
                               should receive refunds faster, and IRS employees should be
                               able to provide improved service to taxpayers by having



                               1
                                 The IRS database that stores various types of taxpayer account
                               information. This database includes individual, business, and employee
                               plans and exempt organizations data.
                               2
                                 IRS Computing Centers support tax processing and information
                               management through a data processing and telecommunications
                               infrastructure.
                               3
                                 For example, posting return information and payments.
                                                                                              Page 1
          Individual Income Tax Return Information Was
Accurately and Timely Posted to the Customer Account Data Engine

                      up-to-date, accurate account information available
                      (see Figure 1).
                              Figure 1: Benefits of the CADE Over the Master File

                            TAXPAYER
                            ACCOUNT                                      Daily vs. Weekly
                             UPDATES


                                                                             Faster by
                             REFUNDS
                                                                           3 to 14 Days4


                                                                          Improved With
                            CUSTOMER
                                                                           More Current
                             SERVICE
                                                                           Information

                      Sources: IRS Business Systems Modernization CADE web site and
                      Wage and Investment Division CADE Project Office.

                      The first phase of the CADE, for individual taxpayer
                      accounts, is to be implemented in a series of releases over
                      several years.5 The simplest taxpayer accounts will be
                      moved to the CADE first. Each successive release will
                      move a more complex segment of taxpayer accounts. The
                      first CADE release, Release 1.1, began posting the simplest
                      individual tax return information in July 2004. This Release
                      posted only information from an Income Tax Return for
                      Single and Joint Filers With No Dependents (Form 1040EZ)
                      with a filing status of single and a refund or even balance.
                      Release 1.2, which included updates for tax law changes
                      affecting Tax Year 2004 income tax returns, was delivered
                      in January 2005 and was the subject of our review.
                      As with Release 1.1, CADE Release 1.2 would post only
                      Forms 1040EZ filed using a filing status of single.
                      Additional CADE limitations included accepting only those
                      tax returns that reflected a refund or even balance, had no
                      errors identified during processing, and used the same
                      address as shown on IRS records. To prepare for tax return


                      4
                        This range was provided by the IRS and included returns filed both
                      electronically and on paper, with refunds issued either by direct deposit
                      or paper check.
                      5
                        See Appendix IV for the CADE Release Chart.
                                                                                        Page 2
          Individual Income Tax Return Information Was
Accurately and Timely Posted to the Customer Account Data Engine

                      processing during Calendar Year 2005, the IRS moved
                      selected taxpayer accounts from the Master File to the
                      CADE based on previous tax year information. These were
                      accounts identified as likely to have returns filed that would
                      meet CADE posting criteria. As Tax Year 2004 returns for
                      these selected accounts were processed:
                      •     Tax returns meeting all CADE criteria had the tax return
                            information posted to the CADE account.
                      •     Tax returns not meeting all CADE criteria had the
                            related account moved back to the Master File, and the
                            tax return information was subsequently posted to the
                            Master File.
                      •     Actions subsequent to posting tax return information
                            that could not be handled by the CADE also caused
                            accounts to be moved back to the Master File.
                      As of January 2005, 3.2 million taxpayers’ accounts were on
                      the CADE. From January through April 2005, the IRS
                      posted 1.3 million tax returns to taxpayers’ accounts on the
                      CADE, generating $400 million in refunds. During this
                      same time, due to restrictions on what the CADE was able
                      to accept, 1.2 million accounts were moved from the CADE
                      back to the Master File. As of the end of April 2005, at
                      least 700,000 accounts that did not yet have a Tax Year
                      2004 return filed remained on the CADE. For perspective,
                      the 1.3 million returns posted to the CADE represented
                      1.2 percent of the 105 million income tax returns processed
                      during this same period.6
                      This review was performed at the CADE Project Office in
                      New Carrollton, Maryland, and at the Austin, Texas;
                      Fresno, California; and Kansas City, Missouri, Submission
                      Processing Sites during the period December 2004 through
                      April 2005. The audit was conducted in accordance with
                      Government Auditing Standards. Detailed information on
                      our audit objective, scope, and methodology is presented in
                      Appendix I. Major contributors to the report are listed in
                      Appendix II.



                      6
                          See Appendix V for the weekly CADE return and refund volumes.

                                                                                   Page 3
                     Individual Income Tax Return Information Was
           Accurately and Timely Posted to the Customer Account Data Engine

                                 Information from tax returns was accurately and timely
Tax Return Information Was
                                 posted to CADE accounts. In addition, for tax returns
Posted Accurately and Timely
                                 posted to the CADE, the IRS issued accurate, timely
to the Customer Account Data
                                 refunds; accurately calculated interest due to taxpayers on
Engine
                                 their refunds;7 issued refunds faster than those for tax
                                 returns posted to the Master File; and provided accurate
                                 refund information to taxpayers through its automated
                                 telephone service and its web site.
                                 Tax return information was accurately and timely
                                 posted
                                 We selected a sample of Forms 1040EZ processed during
                                 4 weeks in February 2005 and identified approximately 200
                                 that posted to the CADE. We researched the CADE
                                 information using the IRS Integrated Data Retrieval System8
                                 to determine if the CADE accounts accurately reflected the
                                 tax return information. This included verifying the accuracy
                                 of:
                                 •   Taxpayers’ identifying information, such as name and
                                     address.
                                 •   Tax and credit information used to generate any refund
                                     or balance due on an account, such as tax, withholding,
                                     and Earned Income Tax Credit amounts.
                                 •   The calculated balance for the return, such as refund
                                     amount or even balance.9
                                 •   Income amounts that might later be needed by IRS
                                     employees, such as adjusted gross income or taxable
                                     income.
                                 For the 200 tax returns posted to the CADE, we also
                                 determined the dates the tax return information was sent
                                 from the Submission Processing sites to the Computing
                                 Centers for posting and the dates the information was posted
                                 to the CADE. The IRS expected the information to be

                                 7
                                   Delays occurring prior to when tax return information is sent to the
                                 CADE, and unrelated to CADE processing, may result in interest being
                                 paid.
                                 8
                                   The IRS computer system capable of retrieving or updating stored
                                 information. It works in conjunction with a taxpayer’s account records.
                                 9
                                   Returns with a balance due were not to be posted to the CADE, and we
                                 did not identify any that were.
                                                                                                Page 4
          Individual Income Tax Return Information Was
Accurately and Timely Posted to the Customer Account Data Engine

                      posted to the CADE on the day after it was released by the
                      Submission Processing sites for initial processing by the
                      Computing Centers.
                      For all 200 tax returns in our sample, the information was
                      posted accurately to the CADE within the expected time
                      period.
                      Refunds from the CADE were accurate, timely, and
                      issued faster than Master File refunds
                      The IRS expected refunds to be issued 4 business days after
                      CADE posting for refunds directly deposited into taxpayers’
                      accounts and 6 business days after CADE posting for paper
                      check refunds. We analyzed refund information for our
                      sample of 200 tax returns, and all refunds were accurate and
                      issued within the expected time period. In addition, we
                      identified 29 accounts with interest paid on refunds as of
                      December 31, 2004, and the CADE had accurately
                      computed the interest.
                      From our 4-week time period, we also selected a sample of
                      approximately 350 tax returns that posted to the Master File
                      (for accounts that were never on the CADE) and evaluated
                      the refunds. As a comparison, paper check refunds for these
                      tax returns took an average of 8 days longer to be issued
                      than those for returns posted to the CADE, and direct
                      deposit refunds took an average of 4 days longer to be
                      issued than those for returns posted to the CADE
                      (see Figure 2).




                                                                            Page 5
                     Individual Income Tax Return Information Was
           Accurately and Timely Posted to the Customer Account Data Engine

                                             Figure 2: Average Calendar Days to Refund10




                                      Refund Type     Master File        CADE             CADE =
                                                                                       Faster Refunds
                                      Paper Check       18 days          10 days         8 days faster
                                  Direct Deposit        11 days           7 days         4 days faster
                                    Combined            15 days        9 days        6 days faster
                                 Source: Treasury Inspector General for Tax Administration (TIGTA)
                                 review of sample returns.

                                 Accurate CADE refund information was available
                                 through the automated telephone service and web site
                                 The IRS provides an automated telephone service and a web
                                 site that taxpayers can use to get information about their
                                 refunds. When taxpayers access these services and input
                                 their identifying information,11 they are given the date and
                                 payment method (direct deposit or paper check) of their
                                 refund.
                                 We researched the refunds for approximately 50 returns
                                 posted to the CADE from the first week of our 4-week
                                 sample using both the automated telephone service and web
                                 site. Both IRS services provided the correct date and
                                 payment method for the refunds.
                                 As tax returns for CADE accounts were processed, those
Accounts Were Accurately
                                 that did not meet CADE criteria had the related account
Moved Back to the Master File
                                 information moved back to the Master File. The tax return
                                 information for these accounts was subsequently posted to
                                 the Master File.
                                 We reviewed approximately 100 tax returns from our
                                 4-week sample that had CADE accounts moved back to the

                                 10
                                    We determined the number of calendar days from the date the
                                 Submission Processing site sent the return information for posting to the
                                 date the refund was issued. These are the average days for our
                                 judgmental sample cases, which may not reflect the overall Master File
                                 or CADE populations.
                                 11
                                    Taxpayers must input their Social Security Number along with the
                                 filing status and dollar amount of the refund shown on their return.
                                                                                                  Page 6
                    Individual Income Tax Return Information Was
          Accurately and Timely Posted to the Customer Account Data Engine

                                Master File as the returns were posting. For these returns,
                                we obtained specific account information that was on the
                                CADE before the account was moved. This included
                                information such as the taxpayer’s name, address, and filing
                                information for prior year returns. We compared this
                                information to that on the account after it was returned to
                                the Master File to determine if any changes were caused by
                                the move. We did not identify any discrepancies.
                                In addition, the transfer of the account information back to
                                the Master File was transparent to taxpayers. Their tax
                                returns were posted and refunds issued within the same time
                                periods as tax returns posted directly to the Master File.
                                The successful implementation of the first two CADE12
The Current Scope of the
                                releases is a noteworthy achievement, providing a good
Customer Account Data Engine
                                foundation for future releases. However, the current scope
Is Limited, and Expanding It
                                of the CADE includes a very limited number of taxpayer
Will Be Challenging
                                accounts. The IRS plans to continually increase the
                                capabilities of the CADE by increasing the number of
                                accounts added to and retained by the CADE and expanding
                                the types of returns the CADE can handle. This will allow
                                the IRS to provide better service to more taxpayers.
                                However, there is much to be done, and expanding the
                                CADE will become even more challenging as the IRS adds
                                capabilities to handle more-complicated tax returns.
                                The current version of the CADE posted tax return
                                information only for Forms 1040EZ for single taxpayers
                                filing a refund or even-balance tax return. There were many
                                additional CADE restrictions, such as posting information
                                only for tax returns with no errors identified during
                                processing and with the same address as shown on IRS
                                records. Actions subsequent to tax return posting that could
                                not be handled by the CADE13 also caused accounts to be
                                returned to the Master File.
                                From January through April 2005, the IRS processed
                                approximately 105 million individual income tax returns.
                                Of these, 1.3 million (1.2 percent of the total processed)
                                were posted to taxpayers’ accounts on the CADE (see
                                Figure 3).

                                12
                                     CADE Releases 1.1 and 1.2.
                                13
                                     Such as payments, address changes, or amended returns.
                                                                                              Page 7
          Individual Income Tax Return Information Was
Accurately and Timely Posted to the Customer Account Data Engine

                                       Figure 3: Master File and CADE Returns
                                             January Through April 2005



                                                              1%

                                                                              Master File

                                                                              CADE


                                 99%



                           Source: IRS statistics for total individual tax returns processed from
                            January through April 2005, verified by TIGTA computer analysis.

                      The IRS is making incremental progress with adding
                      capabilities to the CADE. By July 2005, the IRS plans to
                      include the ability to accept returns with address changes.
                      The IRS also plans changes for early 2006 to increase the
                      number of accounts that are eligible to be moved to the
                      CADE. These changes include accepting taxpayer accounts
                      with prior year issues that have been resolved and increasing
                      the number of prior tax years a taxpayer could have filed.
                      Although subsequent CADE releases will include additional
                      capabilities, it is expected to be Processing Year 2007
                      before the CADE will be able to post a significant number
                      of tax returns (see Figure 4).14




                      14
                        Appendix IV shows the complete IRS schedule of planned CADE
                      releases.

                                                                                            Page 8
                     Individual Income Tax Return Information Was
           Accurately and Timely Posted to the Customer Account Data Engine

                                                     Figure 4: Projected CADE Deployment

                                       Projected          Filing          Return Types        Expected
                                      Deployment          Status             Added            Volumes

                                      January 2005     Single       Forms 1040EZ              1.3 Million
                                                                                                (actual)
                                                       No           Refund or Even Balance
                                                       Dependents
                                                                                         15
                                      January 2006     Single       Forms 1040 & 1040A        4 Million
                                                                    With No Schedules
                                                       No
                                                       Dependents   Extensions Without
                                                                    payment
                                                                    Address Changes
                                                                    Prior Year Returns
                                      January 2007     Single       Forms 1040 and 1040A      33 Million
                                                                    With Various Schedules
                                                       Married
                                                                    Extensions With Payment
                                                       No
                                                       Dependents   Full Paid
                                 Source: Condensed from the IRS CADE Master Plan, dated
                                 February 4, 2005.

                                 In January 2005, there were approximately
More Accounts Could Be
                                 3.2 million taxpayer accounts on the CADE. By
Retained on the Customer
                                 April 2005, approximately 1.2 million of these accounts had
Account Data Engine
                                 been moved back to the Master File because the related
                                 Tax Year 2004 returns were not eligible to be posted to the
                                 CADE or due to other actions on the accounts. This left
                                 approximately 2 million accounts on the CADE. Taxpayers
                                 whose accounts are moved from the CADE to the
                                 Master File lose the benefits of the CADE, including faster
                                 refund processing.
                                 During our review we identified CADE criteria that caused
                                 accounts to be returned to the Master File unnecessarily.
                                 Employees’ comments and letters caused unnecessary
                                 movement of accounts
                                 Currently, tax accounts on the CADE are moved back to the
                                 Master File if a transaction attempts to post that the CADE
                                 has not been programmed to handle, such as subsequent tax
                                 changes. We determined that, when IRS employees placed
                                 temporary comments on a taxpayer’s account or sent certain


                                 15
                                      U.S. Individual Income Tax Return (Forms 1040 and 1040A).
                                                                                                  Page 9
          Individual Income Tax Return Information Was
Accurately and Timely Posted to the Customer Account Data Engine

                      computer-generated letters to a taxpayer, these actions were
                      recognized by the CADE as transactions and caused the
                      account to be moved back to the Master File. This occurred
                      even though these actions made no actual change to the
                      taxpayer’s account and were on the account only
                      temporarily.
                      Management Actions: We reported this issue to the IRS
                      during our review, and management immediately issued
                      instructions to employees to minimize these actions on
                      CADE accounts. In addition, because there are some
                      instances where these actions are required, the IRS plans to
                      implement programming changes to eliminate this problem.
                      The CADE tax computation comparison caused
                      unnecessary movement of accounts
                      We also noted that some CADE accounts were returned to
                      the Master File because the tax computed by the CADE did
                      not match the tax computed during return processing.16
                      However, at the time of our review, the IRS used only the
                      tax computed during return processing and made no use
                      of the tax computed by the CADE. This comparison of
                      computed tax did not appear to serve a purpose, and
                      therefore caused accounts to be moved back to the
                      Master File unnecessarily.
                      We provided this information to IRS management for
                      consideration. Because this tax mismatch affected only a
                      small volume of returns, we are making no formal
                      recommendation at this time.




                      16
                        There are computation tolerances used by the return processing
                      system that may not be used by the CADE, which would cause
                      differences in the tax computed by the two systems.




                                                                                    Page 10
                       Individual Income Tax Return Information Was
             Accurately and Timely Posted to the Customer Account Data Engine

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether tax return information was
accurately and timely posted to taxpayers’ accounts on the Internal Revenue Service (IRS)
Customer Account Data Engine (CADE). The CADE consists of current and planned databases
and related applications that will eventually replace the existing IRS Master File1 system. We
also determined whether related refunds were accurately and timely issued and taxpayers’
accounts were accurately moved from the CADE back to the Master File when their tax return
information could not be posted to the CADE.
To accomplish our objective, we:
I.       Determined whether tax return information was accurately and timely posted to the
         CADE.
         A. Reviewed IRS documents regarding expected posting time periods.
         B. Selected a judgmental sample of 4,000 paper and electronic returns2 (specifically,
            Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ))
            processed during 4 weeks in February 2005. Our sample included three Submission
            Processing sites3 that process paper and/or electronic returns and send their tax return
            data to the two different IRS Computing Centers.4 This sample was sufficient for our
            test purposes and we did not plan to make projections.
         C. Researched account information for the selected tax returns on the Integrated Data
            Retrieval System (IDRS).5 We identified the tax returns that were posted to the
            CADE, those with accounts moved from the CADE back to the Master File for the
            tax returns to be posted, and those with accounts not on the CADE that went directly
            to the Master File to be posted.



1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  The population for our sample consisted of all tax returns input to the IRS return processing computer system on a
single day each week for the 4 weeks of February 2005. This sample was selected from three different Submission
Processing sites. We could not determine with any accuracy the total volume of returns input during those specific
days at those sites.
3
  IRS Submission Processing sites receive tax returns, validate return information and identify and correct
mathematical errors, and send the information to IRS Computing Centers to be posted to taxpayers’ accounts.
4
  IRS Computing Centers support tax processing and information management through a data processing
telecommunications infrastructure. At the Centers, tax return data are analyzed and posted to taxpayers’ accounts.
5
  The IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                            Page 11
                      Individual Income Tax Return Information Was
            Accurately and Timely Posted to the Customer Account Data Engine

        D. Researched on the IDRS all 222 sample tax returns posted to the CADE and
           compared the IRS account information with the information on the tax returns to
           determine whether the returns were accurately posted. We eliminated nine tax returns
           that were delayed in return processing. For the remaining 213 tax returns, we also
           determined the number of days from the date the tax return information was sent to
           the Computing Centers to the date it was posted to the CADE and compared this to
           the expected time periods.
II.     Determined whether the refunds for the CADE-posted tax returns identified in Step I.D.
        were accurately and timely issued to taxpayers.
        A. Reviewed IRS documents to determine expected refund time periods.
        B. Identified 213 taxpayers with refunds. We compared refund data obtained by the IRS
           from the Department of the Treasury Financial Management Services6 with the refund
           amounts shown on these taxpayers’ CADE accounts and with expected refund dates.
        C. Researched the 52 CADE-posted tax returns identified during the first week of our
           sample in Step I.D. on the IRS toll-free automated telephone service and on its web
           site to determine whether accurate refund information was available.
        D. Identified 29 accounts on the CADE as of December 31, 2004, with interest paid on
           refunds. We used the IDRS to compute the interest due the taxpayers and compared
           it to the interest computed by the CADE.
III.    Determined whether accounts on the CADE were accurately and timely restored to the
        Master File when the related tax return did not meet CADE criteria for posting. We also
        determined whether the tax return information was then posted timely to the Master File
        after the account was restored. We researched accounts on the IDRS for 105 tax returns
        identified in Step I.C. that were moved from the CADE back to the Master File.7
        A. Compared account information on the CADE before the account was removed to that
           on the Master File after the account was restored. We determined whether there were
           any discrepancies between the CADE and the Master File for the taxpayer’s name
           and address, the tax years present on the account, and other account information.
        B. Researched the tax returns on the IDRS to determine whether they were timely
           posted. We also determined the timing of the related refunds to use for comparison
           purposes.




6
 The Financial Management Services issues all tax refunds.
7
 The 105 represented all of the returns moved back to the Master File for 3 weeks of the 4-week sample. We did
not have the data available to research 1 week.
                                                                                                        Page 12
                       Individual Income Tax Return Information Was
             Accurately and Timely Posted to the Customer Account Data Engine

IV.      Selected a judgmental sample of 359 tax returns8 identified in Step I.C. for accounts not
         on the CADE that went directly to the Master File to be posted. This sample was
         sufficient for our test purposes and we did not plan to make projections. We researched
         the IDRS and determined the timing of the refunds to use for comparison purposes.
V.       Obtained computer extracts and IRS reports to determine the volume of tax returns
         posted to the CADE, to determine the volume of tax returns with accounts moved from
         the CADE back to the Master File for the tax returns to be posted, and to evaluate the
         reasons the accounts were moved back to the Master File.




8
  This sample was a subset of our sample of 4,000 returns selected in Step I.B. As mentioned in a footnote for that
step, we could not determine the population for that sample with any accuracy because of the specific time periods
involved.
                                                                                                            Page 13
                    Individual Income Tax Return Information Was
          Accurately and Timely Posted to the Customer Account Data Engine

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Steven Stephens, Lead Auditor
Carola Gaylord, Senior Auditor
Jerome Antoine, Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                         Page 14
                    Individual Income Tax Return Information Was
          Accurately and Timely Posted to the Customer Account Data Engine

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 15
                           Individual Income Tax Return Information Was
                 Accurately and Timely Posted to the Customer Account Data Engine

                                                                                                          Appendix IV


                               Customer Account Data Engine Release Chart

                                   Projected                                                                   Expected
   Release       Sub-Release      Deployment          Filing Status                Return Types                Volumes

                     1.1            July 2004      Single              Forms 1040EZ2                           1.3 Million
                                                                                                                 (actual)
Release One1         1.2          January 2005     No dependents       Refund or Even Balance

                    1.3.1           July 2005      Single              Address Changes
                    1.3.2         January 2006     Single              Forms 1040 & 1040A3 With No              4 Million
                                                                       Schedules
                                                                       Extensions Without Payment
                                                                       Prior Year Returns
                     2.1            July 2006      Single              Form 1040 Schedules A, B, & R4
Release Two                                        Married                                            5
                                                                       Form 1040A Schedules 1 & 3
                                                   No Dependents       Extensions With Payment
                                                                       Full Paid
                     2.2          January 2007                         Form 1040 Schedules C, E, & F6 and      33 Million
                                                                       Supporting Forms (With No EIN7)
                                                                                                  8
                                                                       Form 1040 Schedules D, H
                     3.1            July 2007      Single              Form 1040 Schedule EIC9                   To Be
                                                                                             10
                                                                                                               Determined
Release Three                                      Married             Form 1040A Schedule 2                     (TBD)
                                                   Head of             Decedents
                                                   Household
                                                   Dependents



    1
      Highlighted (yellow) items are completed.
    2
      Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).
    3
      U.S. Individual Income Tax Return (Forms 1040 and 1040A).
    4
      Itemized Deductions (Schedule A), Interest and Ordinary Dividends (Schedule B), and Credit for the Elderly or the
    Disabled (Schedule R).
    5
      Interest and Ordinary Dividends for Form 1040A Filers (Schedule 1) and Credit for the Elderly or the Disabled for
    Form 1040A Filers (Schedule 3).
    6
      Profit or Loss From Business (Schedule C), Supplemental Income and Loss (Schedule E), and Profit or Loss From
    Farming (Schedule F).
    7
      Employer Identification Number.
    8
      Capital Gains and Losses (Schedule D) and Household Employment Taxes (Schedule H).
    9
      Earned Income Credit (Schedule EIC).
    10
       Child and Dependent Care Expenses for Form 1040A Filers (Schedule 2).
                                                                                                               Page 16
                            Individual Income Tax Return Information Was
                  Accurately and Timely Posted to the Customer Account Data Engine



                                     Projected                                                                 Expected
    Release       Sub-Release       Deployment         Filing Status                Return Types               Volumes

                       3.2          January 2008                         Balance Due                             TBD
  Release Four                                                           Math Errors
                                                                         Alternative Minimum Tax
                                                                         Estimated Payments
                      4.111          July 2008                                                                   TBD
                       4.2          January 2009                         1040 Schedules C, E, & F With EIN       TBD
  Release Five                                                           Payroll, Unemployment, Excise Tax
                                                                         Returns for Form 1040 Customers
                       5.1           July 2009                                                                   TBD

   Release Six         5.2          January 2010     First-Time Filers   All Other Individual Returns            TBD

                       6.1           July 2010                                                                   TBD
Source: Internal Revenue Service Customer Account Data Engine (CADE) Master Plan dated February 4, 2005.




      11
        For Releases 4.1, 5.1, and 6.1 the Internal Revenue Service planned CADE updates to internal processes but not
      to the filing status or return type.



                                                                                                               Page 17
                       Individual Income Tax Return Information Was
             Accurately and Timely Posted to the Customer Account Data Engine

                                                                                                 Appendix V


                       Weekly Customer Account Data Engine
           Return and Refund Posting Volumes – January Through April 2005

                     Returns          Refunds                                                 Accounts
      Week          Posted to       Generated by           Refund             Average        Returned to
      Ended        the CADE1         the CADE2             Amount             Refund         the Master
                                                                                                 File
      Jan 21          23,583            23,488           $11,188,097            $476             23,123
      Jan 28          55,435            55,186           $24,055,925            $436             45,532
       Feb 4         138,671            138,029          $54,282,957            $393            109,887
      Feb 11         136,710            135,867          $48,005,534            $353            119,647
      Feb 18         121,014            120,183          $39,327,352            $327            105,491
      Feb 25         115,495            114,619          $35,414,988            $309             94,200
       Mar 4         114,883            113,893          $33,601,031            $295             96,625
      Mar 11          94,553            93,637           $26,914,609            $287             84,315
      Mar 18          84,926            84,003           $23,507,824            $280             71,323
      Mar 25          71,047            70,111           $19,232,646            $274             64,341
       Apr 1          65,268            64,209           $17,099,667            $266             62,421
       Apr 8          69,974            68,760           $17,850,434            $260             65,024
      Apr 15          95,458            93,317           $23,851,892            $256             90,312
      Apr 22          88,166            85,929           $20,573,087            $239            105,516
      Apr 29          60,659            59,061           $13,164,070            $223             66,781
      Totals        1,335,842         1,320,292         $408,070,113            $309           1,204,538
    Source: Internal Revenue Service CADE production report as of April 29, 2005, which was validated with
    computer runs by the Treasury Inspector General for Tax Administration.




1
  Customer Account Data Engine (CADE).
2
  Some returns posted by the CADE had no refund due (referred to as ‘Even Balance’), so the number of refunds
issued is fewer than the number of returns posted.
                                                                                                        Page 18
